TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




             Citibank Purchase Card and Fleet Card Rebates
             Were Maximized and Are Now Properly Allocated



                                          March 30, 2012

                              Reference Number: 2012-10-031




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


CITIBANK PURCHASE CARD AND                           determined that, on average, invoices for
FLEET CARD REBATES WERE                              purchase card and fleet card accounts were paid
MAXIMIZED AND ARE NOW PROPERLY                       within five calendar days of the invoice receipt
ALLOCATED                                            date. This significantly contributed to the IRS
                                                     achieving compliance with the Prompt Payment
                                                     Act and maximizing rebates. From
Highlights                                           September 2007 through March 2009, the IRS
                                                     made 106,080 payments totaling more than
                                                     $102 million for purchase card and fleet card
Final Report issued on March 30, 2012                accounts to Citibank. These payments were
                                                     timely in 99.96 percent of the instances.
Highlights of Reference Number: 2012-10-031
to the IRS Deputy Commissioner for Services          Fleet card rebates received during FY 2008
and Enforcement and Deputy Commissioner for          through FY 2010 were properly allocated to the
Operations Support.                                  appropriation from which the funds were
                                                     originally expended; however, only the purchase
IMPACT ON TAXPAYERS                                  card rebates received after the first quarter of
The IRS receives rebates based on its purchase       FY 2010 were properly allocated. The
card and fleet card expenditures. Rebates are        incorrectly allocated purchase card rebates
increased based on the total volume of               resulted in a misappropriation of funds totaling
expenditures and timeliness of payments.             approximately $1 million. The misappropriation
Controls are generally operating effectively for     was due to the IRS not returning the rebates to
the IRS to achieve compliance with the Prompt        the correct appropriation, and not because
Payment Act and to maximize rebates.                 TIGTA identified any instances in which these
However, approximately $1 million of purchase        funds were used for personal use or evidence of
card rebates were not allocated to the correct       criminal wrongdoing.
appropriations, reducing the amounts that could      Although the IRS is still unable to validate the
have been spent IRS-wide, including providing        amount of rebates it receives and has no
services to taxpayers.                               assurance that the amounts are correct, the
WHY TIGTA DID THE AUDIT                              Department of the Treasury asked the General
                                                     Services Administration to determine whether
This audit was included in our Fiscal Year (FY)      the rebate amounts received from Citibank were
2011 Annual Audit Plan and addresses the             accurate. The General Services Administration
major management challenge of Erroneous and          audit identified additional rebates owed to the
Improper Payments and Credits. The overall           Department of the Treasury, but the final report
objectives were to determine whether the IRS         had not been issued by the conclusion of
has established sufficient controls in the           TIGTA’s fieldwork and, therefore, TIGTA does
purchase card and fleet card programs to             not know how much was applicable to the IRS.
ensure rebates are maximized and properly
allocated and that payments are made in              WHAT TIGTA RECOMMENDED
compliance with the Prompt Payment Act.              TIGTA made no recommendations as a result of
WHAT TIGTA FOUND                                     the work performed during this review.
                                                     However, key IRS officials reviewed the report
The IRS’s management controls over the credit        prior to its issuance and agreed with the facts
card payment and rebate allocation processes         and conclusions presented.
are generally operating effectively to achieve
compliance with the Prompt Payment Act and
Office of Management and Budget Circular
A-123, Appendix B, Improving the Management
of Government Charge Card Programs,
including maximizing rebates. TIGTA
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 30, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Citibank Purchase Card and Fleet Card Rebates
                              Were Maximized and Are Now Properly Allocated
                              (Audit # 201110003)

 This report presents the results of our review of the purchase card and fleet card rebate program.
 The overall objectives of this review were to determine whether the Internal Revenue Service has
 established sufficient controls in the purchase card1 and fleet card programs to ensure rebates are
 maximized and properly allocated, and that payments are made in compliance with the Prompt
 Payment Act.2 We also determined whether appropriate corrective actions have been taken in
 response to recommendations made in our prior audit.3 This review was included in our Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Erroneous and
 Improper Payments and Credits.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, key Internal Revenue Service officials
 reviewed this report prior to its issuance and agreed with the facts and conclusions presented.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations), at
 (202) 622-8500.


 1
   See Appendix VII for a glossary of terms.
 2
   Pub. L. No. 97-177, 96 Stat.85 (1982) (codified as amended at 31 U.S.C. §3901 et seq.)..
 3
   Treasury Inspector General for Tax Administration, Ref. No. 2010-10-124, Although Citibank Travel Rebates
 Have Significantly Increased, They Were Not Properly Allocated, Resulting in the Misappropriation of Funds, p. 24
 (Sept. 2010).
                                  Citibank Purchase Card and Fleet Card Rebates
                                  Were Maximized and Are Now Properly Allocated




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Generally Exceeded the Requirements
          of the Prompt Payment Act and Maximized Purchase Card and Fleet
          Card Rebate Amounts ................................................................................... Page 5
          The Internal Revenue Service Is Now Allocating Citibank Rebates to
          the Proper Appropriation .............................................................................. Page 8
          Citibank Has Not Provided Sufficient Data to Allow for the Internal
          Revenue Service’s Validation of Rebate Accuracy ...................................... Page 9

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Internal Revenue Service Purchase Card and
          Fleet Card Rebates ........................................................................................ Page 18
          Appendix VI – Excerpt From Office of Management and Budget
          Circular A-123, Appendix B ......................................................................... Page 21
          Appendix VII – Glossary of Terms .............................................................. Page 22
         Citibank Purchase Card and Fleet Card Rebates
         Were Maximized and Are Now Properly Allocated




                 Abbreviations

AWSS       Agency-Wide Shared Services
BFC        Beckley Finance Center
FY         Fiscal Year
IFS        Integrated Financial System
IRS        Internal Revenue Service
WebRTS     Web Request Tracking System
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated




                                            Background

The Department of the Treasury selected Citibank to provide credit card services for all of its
offices and bureaus under the SmartPay21 program, and the Internal Revenue Service (IRS) uses
purchase cards and fleet cards to procure goods and services. Because this is a Government
contract, Citibank offers incentives (cash rebates) for timely payment of purchase card and fleet
card invoices. The rebates are based on two primary factors: the total amount of purchase card
and fleet card purchases (hereafter referred to as expenditures) and the timeliness of payments on
expenditures. Rebates are increased by timely payments and are reduced or eliminated by late
payments. As a result, it is important for the IRS to ensure that invoices are timely paid. From
Fiscal Year (FY) 2008 through FY 2010, the IRS had expenditures totaling almost $215 million
for purchase and fleet cards and received more than $2.4 million in rebate proceeds for the same
period.
Additionally, each Federal agency that acquires goods or services from a business must comply
with the Prompt Payment Act,2 which requires Federal agencies to pay the amount due within
30 calendar days of receiving an invoice.3 If invoices are not timely paid, interest4 penalties
begin to accrue.
The IRS established management controls over its payment processes to ensure compliance with
the Prompt Payment Act and to maximize rebates. For the purchase card program, in
September 2007, the IRS implemented an electronic control (Web Request Tracking System
(WebRTS) purchase card module) in which the reconciliation and approval process takes place
to certify the invoice for payment. In contrast, the fleet card program uses a manual control
process whereby an approving official receives the invoice, reconciles the transactions, and
certifies the invoice for payment. The IRS’s policy is to reconcile and certify transactions for
payment within 10 days5 of the invoice receipt date. The certified expenditures are forwarded to
the Beckley Finance Center (BFC), which processes the payments to Citibank through the
Integrated Financial System (IFS).
Office of Management and Budget Circular A-123, Appendix B, Improving the Management of
Government Charge Card Programs (hereafter referred to as the Circular),6 prescribes policies

1
  See Appendix VII for a glossary of terms.
2
  Pub. L. No. 97-177, 96 Stat. 85 (1982) (codified as amended at 31 U.S.C. § 3901 et seq.).
3
  Although “invoice” is synonymous with “statement,” both the Prompt Payment Act and the BFC use “invoice” to
describe the receipt of monthly transaction reports. As a result, we used the term “invoice” in this report.
4
  The amount of interest must equal or exceed $1.00 before it can be charged to the IRS.
5
  The generic word “days” is used here in this paragraph. The requirement for purchase cards is business days and
the requirement for fleet cards is calendar days.
6
  Office of Management and Budget Circular No. A-123, Appendix B, Revised January 15, 2009.
                                                                                                          Page 1
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated



and procedures to agencies regarding how to maintain internal controls that reduce the risk of
fraud, waste, and error in Government charge card programs (see Appendix VI).7 The Circular
also stipulates that unless specific statutory authority exists allowing rebates to be used for other
purposes, rebates must be returned to the appropriation or account from which they were
expended and can be used for any legitimate expenditure by the appropriation to which they
were returned or as otherwise authorized by statute. The IRS’s budget has five8 regular
appropriations: Taxpayer Services, Enforcement, Operations Support, Business System
Modernization, and Health Insurance Tax Credit Administration. In addition, the Circular
instructs Federal agencies to maximize rebates where appropriate.
The purchase card and fleet card programs are administered by different IRS business units. The
Credit Card Services Branch has administrative oversight and program responsibilities for the
IRS’s purchase credit card program. Criminal Investigation and the Small Business/
Self-Employed Division have administrative oversight and program responsibilities for their
individual fleet card programs.
In our prior audit of travel card rebates,9 we recommended that the Chief Financial Officer
establish and implement policies and procedures to ensure travel card rebates are allocated to the
appropriations from which the expenditures were originally expended. We further recommended
that the Deputy Commissioner for Operations Support institute an oversight program, including
periodic reviews, to ensure the new policies and procedures were implemented and that future
travel card rebates are properly allocated. Additionally, we recommended that the IRS
coordinate with the Department of the Treasury to work with Citibank to obtain the data
necessary to independently verify the travel card rebate amounts. The IRS concurred with our
recommendations and has made significant progress on their implementation.
We limited the scope of this review to evaluating management controls over the purchase card
and fleet card payment and rebate allocation processes, whether purchase card and fleet card
rebates were maximized and properly allocated, and whether payments were made in compliance
with the Prompt Payment Act. We did not examine any other aspects of the IRS’s credit card
programs during this audit.
This review was performed at the Agency-Wide Shared Services (AWSS), Employee Support
Services, Credit Card Services Branch, in Nashville, Tennessee; the Office of the Chief Financial
Officer in Washington, D.C.; the BFC in Beckley, West Virginia; Criminal Investigation,
Investigations and Enforcement Operations, in Dallas, Texas; the Small Business/Self-Employed


7
  Appendix VI provides information on the Circular’s guidance for Government credit card rebates.
8
  The FY 2012 budget contains four regular appropriations; however, during the time of our review there were five
appropriations in effect.
9
  Treasury Inspector General for Tax Administration, Ref. No. 2010-10-124, Although Citibank Travel Rebates
Have Significantly Increased, They Were Not Properly Allocated, Resulting in the Misappropriation of Funds, p. 24
(Sept. 2010).
                                                                                                          Page 2
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



Division, Strategy and Finance Office, in St. Paul, Minnesota; and the Department of the
Treasury Purchase Card and Fleet Card Coordinators in Washington, D.C., during the period
October 2010 through October 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated




                                     Results of Review

The IRS’s management controls over the credit card payment and rebate allocation processes are
generally operating effectively to achieve compliance with the Prompt Payment Act and the
Circular, including maximizing rebates. Our audit determined that, on average, invoices for
purchase card and fleet card accounts were reviewed, approved, and paid within five calendar
days of the invoice receipt date. This significantly contributed to the IRS achieving compliance
with the Prompt Payment Act and maximizing rebates. From September 2007 through
March 2009, the IRS made 106,080 payments totaling more than $102 million for purchase card
and fleet card accounts to Citibank. These payments were timely in 99.96 percent of the
instances.
Regarding the proper allocation of rebates, we noted improvements since our prior report. Fleet
card rebates received during FY 2008 through FY 2010 were properly allocated to the
appropriations from which the funds were originally expended. In addition, the purchase card
rebates received after the first quarter of FY 2010 were properly allocated. However, from
FY 2008 through the first quarter of FY 2010, the AWSS function allocated the majority of the
purchase card rebates received during this period to the Operations Support appropriation.
Because the IRS did not return the rebates proportionately to the appropriations from which they
were originally expended, it resulted in a misappropriation of funds10 totaling approximately
$1 million. We did not identify any instances in which these funds were used for personal use or
find any evidence of criminal wrongdoing.
Multiple factors have contributed to the IRS maximizing the amount of rebates it receives from
Citibank. Primarily, the IRS has undertaken initiatives to enhance the timeliness of its payments
to Citibank by instituting the WebRTS purchase card module. In addition, the current
SmartPay2 contract provides an increase in basis points over the previous contract. The
contract’s terms have increased the amount of rebates received and provides the IRS a greater
incentive to maximize rebates. However, the IRS is still unable to validate the amount of rebates
it receives from Citibank and has no assurance that the amounts are correct.




10
  The Misappropriation Act, 31 U.S.C. § 1301, requires that funds appropriated by Congress be used only for
the programs and purposes for which the appropriation was made.
                                                                                                         Page 4
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated



The Internal Revenue Service Generally Exceeded the Requirements
of the Prompt Payment Act and Maximized Purchase Card and Fleet
Card Rebate Amounts
From September 2007 through March 2009, the IRS made 106,080 payments totaling more than
$102 million on purchase card and fleet card accounts to Citibank. We identified only
41 (0.04 percent) late payments that were attributed to isolated instances of human processing
errors and the transition to an electronic process.11 As a result, we believe the IRS successfully
met the requirements of the Prompt Payment Act, which requires payment by 30 calendar days
from the invoice receipt date. In addition, because the IRS paid the purchase card and fleet card
invoices in an average of five calendar days, the IRS maximized the amount of Citibank rebates
and exceeded the payment time period in the Prompt Payment Act.

Management controls were generally effective in achieving prompt payment
Management controls over the credit card payment process are generally operating effectively to
achieve compliance with the Prompt Payment Act. In September 2007, the IRS implemented the
purchase card module within the WebRTS, transitioning the purchase card administration and
payment process from a manual process to an electronic process. The module was designed to
enhance the purchase card program by providing an electronic process to associate and reconcile
transactions with Citibank charges, allowing approving officials to certify individual transactions
for payment, and interfacing daily with the Integrated Procurement System and the IFS. These
enhancements allow the IRS to establish obligations and process payments more efficiently.
In the IRS’s purchase card program, 104,817 payments totaling more than $93 million were
made to Citibank from September 2007 through March 2009. Of those payments, only 40
totaling approximately $32,00012 did not meet the requirements of the Prompt Payment Act. The
BFC took full responsibility for all of the late payments. Management stated that the majority of
the late payments resulted from the purchase card program’s conversion from a manual process
to an electronic process during the implementation of the WebRTS purchase card module.
Additionally, management stated that other late payments were due to isolated technician
processing errors.
Unlike the purchase card program, the IRS’s fleet card program operated on a manual process.
In order to achieve compliance with the requirements of the Prompt Payment Act, fleet card
program management controls require that the approving official reconcile and certify the
invoice within 10 calendar days of receipt and mail or fax the invoice to the BFC for payment.
The IRS’s fleet card program approving officials complied with the required time period and


11
   The implementation of the purchase card module within the WebRTS caused isolated errors as the IRS personnel
were learning the new system.
12
   These late payments resulted in interest penalties paid to Citibank of approximately $100.
                                                                                                        Page 5
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated



paid invoices within an average of five calendar days from invoice receipt. This practice allows
the BFC sufficient time to process payments in compliance with the requirements of the Prompt
Payment Act. In the IRS’s fleet card program, 1,263 payments totaling more than $9.6 million
were made to Citibank from September 2007 through March 2009. Of those payments, only one
payment of $197 was not paid timely. The late payment was due to an oversight by a BFC
technician who incorrectly entered the amount of payment as one dollar less than was actually
due. The technician corrected the mistake five calendar days later. Due to the negligible amount
of the late payment and the rapid correction of the error, the late payment did not accrue interest
penalties.
Although both credit card programs had a small number of instances in which they did not meet
the Prompt Payment Act, we determined that the IRS has been successful in minimizing both the
number of payments that do not meet the requirements of the Prompt Payment Act and the
related interest penalties.

Multiple factors contributed to maximizing Citibank rebates
The initiation of the purchase card electronic process within the WebRTS, adherence to
management controls over the payment process, and the terms and incentives provided in the
SmartPay2 contract have been effective in significantly increasing the amount of Citibank
rebates received by the IRS. For example, with the WebRTS purchase card module, payments
on purchase card invoices averaged five calendar days from the invoice receipt date from
September 2007 to March 2009. For fleet card programs, each Criminal Investigation and
Small Business/Self-Employed Division field office is required to manually reconcile and certify
its Citibank invoices within 10 calendar days of receipt and mail or fax the invoices to the BFC
for payment. Similar to the purchase card program, from September 2007 to March 2009,
payments on fleet card invoices averaged five calendar days from the invoice receipt date.
Based on the low average number of days from the invoice receipt date to the date the BFC made
a payment, we believe the purchase card and fleet card programs have been effective in
maximizing rebates where appropriate.
In addition, the SmartPay2 contract terms provided additional incentives for making timely
payments, which the IRS made use of to significantly increase the amount of rebates it received.
During FY 2009, FY 2010, and the first three quarters of FY 2011, under the SmartPay2
contract, the quarterly rebates ranged from approximately $117,000 to $420,000,13 or
1.41 percent of total purchase card and fleet card spending. Under the prior contract, the
combined Citibank quarterly rebates for the purchase card and fleet card programs ranged from
approximately $41,000 to $133,000, or 0.90 percent of total purchase card and fleet card
spending during FYs 2007 and 2008.

13
 Appendix V provides details of purchase card and fleet card rebates from FY 2005 through the third quarter of
FY 2011.
                                                                                                          Page 6
                            Citibank Purchase Card and Fleet Card Rebates
                            Were Maximized and Are Now Properly Allocated



The terms and incentives provided in the Citibank SmartPay2 contract created a substantial
increase in the rebates. Features of the SmartPay2 contract that resulted in these increased
rebates are:
       Sales rebates basis points increased from 14 to 91 for the purchase card and from six to
        10 for the fleet card.
       Productivity rebate basis points increased from 53 to 75 for the fleet card.

Figure 1 indicates increases and decreases in the dollar amount of rebates that were received
after the implementation of the SmartPay2 contract, which were higher than the rebates that were
received under the SmartPay1 contact.
   Figure 1: Total Amount of Purchase Card and Fleet Card Rebates by Quarter




Source: Our analysis of Citibank Custom Reporting System data from FY 2005 through the 3rd quarter of
FY 2011. * Indicates the fleet card program received rebates from Wright Express.




                                                                                                        Page 7
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



The Internal Revenue Service Is Now Allocating Citibank Rebates to
the Proper Appropriation
During FY 2008 through FY 2010, the IRS received approximately $2.4 million in purchase card
and fleet card rebates from Citibank. Fleet card rebates for this entire period were properly
allocated to the Enforcement appropriation from which the funds were originally expended. In
addition, purchase card rebates received after the first quarter of FY 2010 were properly
allocated to the appropriations from which the funds were originally expended. However, from
FY 2008 through the first quarter of FY 2010, the AWSS function allocated the majority of the
purchase card rebates to the Operations Support appropriation instead of returning the rebates
proportionately to the appropriations from which they were originally expended. We previously
reported this finding in the travel card rebate report and determined that, during this audit, the
IRS allocated purchase card rebates following the same process as travel card rebates. As a
result, the IRS misappropriated approximately $1 million for this period, reducing the amounts
that could have been spent IRS-wide, including providing services to taxpayers. The
misappropriation was due to the IRS not returning the rebates to the correct appropriation and
not because we identified any instances in which these funds were used for personal use or
evidence of criminal wrongdoing.
The purchase card rebates from FY 2008 through the first quarter of FY 2010 totaled
approximately $1.5 million. The AWSS function allocated the entire $1.5 million to the
Operations Support appropriation but should have only allocated approximately $500,000. The
remaining $1 million should have been allocated to the other four appropriations. The Circular
states that rebate proceeds are to be returned to the appropriation or accounts from which they
were originally expended and can be used for any legitimate expenditure for that appropriation.
The IRS advised us that it had interpreted the Circular as supporting its retention of the rebates
within the AWSS function budget to cover the costs of the Employee Support Services programs
and operations because it believed this was a legitimate purpose.
In response to the recommendations provided in our prior audit of travel card rebates, the IRS
took several actions to strengthen controls for rebate allocation and is now in compliance with
the Circular. Currently, the IRS has a two-step automated process for allocating rebates. In
June 2011, the AWSS function established an automated process within the IFS to calculate the
percentage of purchase card, fleet card, and travel card expenditures from each appropriation.
The IFS applies this percentage to the rebates received to determine the amounts that should be
allocated back to the correct appropriation(s). The second control is an independent validation of
this calculation and allocation performed by the AWSS function’s Office of Strategy and
Finance. This office replicates the automated process in the IFS to validate that the calculations
were correct according to the guidance and requirements of the Circular and approves the rebate
allocations for posting to the appropriation or account from which they were originally
expended.


                                                                                           Page 8
                              Citibank Purchase Card and Fleet Card Rebates
                              Were Maximized and Are Now Properly Allocated



Prior to this automated process, the IRS developed draft guidance to manually calculate the
percentage of purchase card, fleet card, and travel card expenditures from each appropriation,
which was used to correctly allocate the rebates. This guidance was effective with the second
quarter of FY 2010, and we determined the IRS correctly allocated the rebates for this quarter.
Additional draft guidance was issued for the Office of Strategy and Finance to independently
review the manual calculations after the rebates were allocated. The IRS issued these draft
procedures in final on January 18, 2011.
While we did evaluate the actual rebate allocations that were made to the IRS’s appropriations to
determine if they were appropriately allocated, we did not examine the independent reviews
conducted by the Office of Strategy and Finance to determine if it effectively ensured the
calculations were correct.

Citibank Has Not Provided Sufficient Data to Allow for the Internal
Revenue Service’s Validation of Rebate Accuracy
We determined that Citibank did not provide data that would allow the IRS to verify whether the
quarterly purchase card and fleet card rebates received were correct. As a result, the IRS cannot
be assured that the purchase card and fleet card rebates received from FY 2005 through the third
quarter of FY 2011 totaling approximately $3.7 million were accurate.
Despite the lack of data, the IRS had not attempted to validate the amount of rebates received
and instead relied on the Department of the Treasury to ensure the accuracy of the rebates. In
our prior audit, we met with representatives from the Department of the Treasury and learned
that while they do not have any written policies or procedures to verify the accuracy of the
rebates, they do perform a “reasonableness test” on sales rebates. This is done by comparing
various reports14 they receive from Citibank that provide periodic information on the Department
of the Treasury purchase card and fleet card expenditures (total sales) charged to Citibank cards.
The IRS and the Department of the Treasury advised us during this audit that there had not been
any changes or new procedures established to validate the rebates.
In the IRS’s response to our prior audit recommendations, it informed us that the General
Services Administration had contracted with an outside accounting firm to perform reviews of
the Citibank rebate payments to the Department of the Treasury. The audit15 was initiated during
February 2011 and focused on verifying the amount of both the sales and productivity rebates
owed to the Department of the Treasury for all of its credit card programs. In the draft General
Services Administration audit report, the total rebate amount (sales and productivity) was


14
   The Department of the Treasury reviews the Citibank monthly cycle spend reports (departmental roll-up level) to
compare the spend amount to the rebate net charge volume amount provided separately by Citibank.
15
   The audit period subject to review was January 1, 2009, through March 31, 2010, and October 1 through
December 31, 2010.
                                                                                                           Page 9
                          Citibank Purchase Card and Fleet Card Rebates
                          Were Maximized and Are Now Properly Allocated



evaluated based upon the source data obtained from Citibank, and it was determined that
approximately $66,600 in additional sales rebates is due to the Department of the Treasury. In
addition, the audit determined that there were no variances in the productivity rebates; therefore,
no additional productivity rebate proceeds were owed to the Department of the Treasury. The
final General Services Administration audit report had not been issued by the conclusion of our
fieldwork, so we do not know the actual amount of the rebate changes and how much was
applicable to the IRS. The IRS and the Department of the Treasury are awaiting the final results
of the General Services Administration audit prior to taking any further actions or developing
validation procedures. Because any actions by the IRS to address our prior audit
recommendation to independently verify the quarterly rebate amounts will be dependent in part
on the results of this General Services Administration audit, we are not making any additional
recommendations at this time.




                                                                                           Page 10
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated



                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the IRS has established
sufficient controls in the purchase card1 and fleet card programs to ensure rebates are maximized
and properly allocated and that payments are made in compliance with the Prompt Payment Act.2
We also determined whether appropriate corrective actions have been taken in response to
recommendations made in our prior audit on travel card rebates.3 To accomplish our objectives,
we:
I.      Obtained an overall understanding of the controls the IRS has in place to maximize
        rebates in the purchase card and fleet card programs and the management controls related
        to payments made to Citibank.
        A. Reviewed the applicable guidance and IRS policies, procedures, and practices and
           identified the controls over the purchase card and fleet card programs.
        B. Interviewed IRS personnel involved in the purchase card and fleet card programs to
           determine the processes and controls used.
II.     Determined whether the IRS’s internal controls were effective to ensure the IRS met the
        requirements of the Prompt Payment Act.
        A. Determined whether the IRS business and functional units met the requirements of
           the Prompt Payment Act.
             1. Analyzed data from the IRS’s IFS containing 106,080 payments made to Citibank
                on the IRS’s purchase card and fleet card corporate accounts from
                September 2007 through March 2009.
             2. Calculated the number of calendar days from the invoice receipt date to the
                payment confirmation date for purchase card and fleet card transactions to
                determine whether the payments met the requirements of the Prompt Payment
                Act.




1
  See Appendix VII for a glossary of terms.
2
  Pub. L. No. 97-177, 96 Stat. 85 (1982) (codified as amended at 31 U.S.C. § 3901 et seq.).
3
  Treasury Inspector General for Tax Administration, Ref. No. 2010-10-124, Although Citibank Travel Rebates
Have Significantly Increased, They Were Not Properly Allocated, Resulting in the Misappropriation of Funds, p. 24
(Sept. 2010).
                                                                                                        Page 11
                        Citibank Purchase Card and Fleet Card Rebates
                        Were Maximized and Are Now Properly Allocated



       B. Determined if any payments were late by analyzing whether cardholders timely
          reconciled, and approving officials timely reviewed and approved, the purchase card
          and fleet card transactions.
       C. Assessed the reliability of the IFS computer-processed data and determined whether
          the data are sufficiently reliable to use for our audit tests. We randomly selected
          12 copies of account statements and compared them against the data we received to
          ensure dates and amounts matched.
III.   Interviewed IRS personnel responsible for purchase card and fleet card rebates and
       determined whether the quarterly rebate amounts they received from Citibank were
       verified for accuracy.
IV.    Contacted the Department of the Treasury and obtained a status on any changes in its
       roles and responsibilities and the policies, procedures, and practices regarding the
       Department of the Treasury’s oversight of the IRS’s purchase card and fleet card
       programs.
       A. Interviewed the Program Coordinator for the purchase card program.
       B. Interviewed the Program Coordinator for the fleet card program.
       C. Determined the status of the General Services Administration audit on the rebates
          received by the Department of the Treasury for all credit card programs.
V.     Determined the appropriations that funded the purchase card and fleet card expenditures
       and the IRS’s allocation of the rebate amounts it received from Citibank from FY 2008
       through FY 2010 to ensure the rebates were returned to the proper appropriations from
       which they were originally expended in accordance with Office of Management and
       Budget Circular A-123, Appendix B, Improving the Management of Government Charge
       Card Programs (Circular).
       A. Interviewed the IRS Employee Support Services Chief Administrative Program Staff
          Manager, the Chief Financial Officer, the Small Business/Self-Employed Division
          Fleet Card Coordinator, and the Criminal Investigation Fleet Card Coordinator.
       B. Traced purchase card and fleet card expenditures and rebate allocations for the period
          of FY 2008 through FY 2010 to determine whether the rebates were proportionally
          allocated back to the appropriations from which they were originally expended.
VI.    Followed up on the FY 2010 Treasury Inspector General for Tax Administration audit
       recommendations related to travel card rebates to determine whether corrective actions
       were sufficient to fully address the audit findings.




                                                                                        Page 12
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



VII.   Determined whether the IRS effectively maximized rebates received from Citibank.
       A. Obtained the quarterly AWSS function purchase card and the Criminal Investigation
          and Small Business/Self-Employed Division fleet card rebate amounts received in
          FYs 2008, 2009, and 2010 and the first three quarters in FY 2011.
       B. Received the Department of the Treasury SmartPay2 General Services
          Administration credit card contract specification to determine how the IRS could
          maximize rebates.
       C. Determined the impact of the Department of the Treasury SmartPay2 General
          Services Administration credit card contract terms had on maximizing rebates.
       D. Used the results from Step II.A. to determine whether the payment dates effectively
          maximized rebates where appropriate. We did not specifically test whether each
          payment maximized the rebate because the Circular allows for maximizing rebates
          where appropriate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
controls to ensure the IRS maximizes rebates, properly allocates the rebates received, and makes
timely payments in accordance with the requirements in the Prompt Payment Act. We evaluated
these internal controls by: 1) interviewing key personnel within the AWSS function Credit Card
Services, the Office of the Chief Financial Officer, and Criminal Investigation and Small
Business/Self-Employed Division management; 2) interviewing management and personnel at
the BFC; 3) interviewing credit card approving officials; 4) reviewing a total population of
106,080 purchase and fleet card payments to determine compliance with the Prompt Payment
Act; 5) reviewing the polices and guidance for purchase card and fleet card payment processing;
and 6) reviewing guidance and supporting documentation for the allocation of rebate amounts.




                                                                                        Page 13
                       Citibank Purchase Card and Fleet Card Rebates
                       Were Maximized and Are Now Properly Allocated



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
John L. Ledford, Audit Manager
Heather M. Hill, Acting Audit Manager
Gene A. Luevano, Lead Auditor
David P. Robben, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
Lara E. Phillippe, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 14
                      Citibank Purchase Card and Fleet Card Rebates
                      Were Maximized and Are Now Properly Allocated



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
IRS Chief Financial Officer OS:CFO
Director, Employee Support Services, Agency-Wide Shared Services OS:A:ESS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief, Criminal Investigation SE:CI
       IRS Chief Financial Officer OS:CFO




                                                                              Page 15
                                Citibank Purchase Card and Fleet Card Rebates
                                Were Maximized and Are Now Properly Allocated



                                                                                  Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Cost Savings, Funds Put to Better Use – Actual; $1,009,822 in purchase card1 rebates that
      were not allocated to the correct appropriations for the period FY 2008 through the first
      quarter of FY 2010 (see page 8).

Methodology Used to Measure the Reported Benefit:
We reviewed applicable Federal guidance (Office of Management and Budget Circular
A-123, Appendix B, Improving the Management of Government Charge Card Programs
(referred to as the Circular) and the Misappropriation Act)2 to determine how purchase card
rebates should be allocated. The Circular requires that rebates be returned to the appropriation or
account from which the purchase card expenditures were originally expended. The
Misappropriation Act requires that funds appropriated by Congress be used only for the
programs and purposes for which the appropriation was made. We requested the detailed
purchase card expenditure data from the IRS’s appropriations and accounts for the period
FY 2005 through FY 2010. The AWSS function was only able to provide detailed purchase card
and fleet card expenditure data from FY 2008 through FY 2010 that could be traced back to the
specific appropriation from which they were originally expended.
We analyzed the detailed expenditure data from FY 2008 through the first quarter of FY 2010
and determined the AWSS function received $1,514,450 in purchase card rebates from Citibank.
We calculated from the detailed expenditure data the percentage of purchase card expenditures
from each of the IRS’s five appropriations. We used these percentages to determine how the
rebate amounts should have been allocated back to each of the five appropriations and
determined the allocations the IRS made were incorrect from FY 2008 through the first quarter
of FY 2010. The AWSS function allocated the entire $1,514,450 to the Operations Support
appropriation but should have only allocated $504,628. The remaining $1,009,822 should have
been allocated to the other four appropriations. Therefore, the IRS misappropriated $1,009,822
of the total purchase card rebates received from Citibank for FY 2008 through the first quarter of

1
    See Appendix VII for a glossary of terms.
2
    31 U.S.C. § 1301.
                                                                                           Page 16
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



FY 2010. From the second quarter of FY 2010 through the end of FY 2010, the AWSS function
correctly allocated the rebates to all five appropriations.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; $3,696,450 in rebate amounts that could not be
    independently validated to ensure accuracy (see page 9).

Methodology Used to Measure the Reported Benefit:
We determined that Citibank did not provide data that would allow the IRS to verify whether the
quarterly purchase and fleet card rebates received were correct. We interviewed IRS program
officials and Department of the Treasury representatives to determine the verification processes
used to ensure the correct amount of rebates were paid by Citibank. Despite the lack of data
from Citibank, the IRS had not attempted to validate the amount of rebates received and instead
relied on the Department of the Treasury to ensure the accuracy of the rebates. The Department
of the Treasury does not have written policies and procedures to verify the accuracy of the
rebates, but does perform a “reasonableness test” on sales rebates. As a result, the IRS has no
assurance that the $3,696,450 in purchase card and fleet card rebates received from FY 2005
through the third quarter of FY 2011 were accurate.




                                                                                             Page 17
                                Citibank Purchase Card and Fleet Card Rebates
                                Were Maximized and Are Now Properly Allocated



                                                                                             Appendix V

               Internal Revenue Service Purchase Card 1
                        and Fleet Card Rebates

Figure 1 illustrates the amount of rebates received per quarter for the purchase card program.
The vertical line indicates the start of the SmartPay2 contract.
           Figure 1: Total Purchase Card Citibank Rebates Received by Quarter




Source: Our analysis of Citibank Custom Reporting System data for FY 2005 through the 3rd quarter of FY 2011.




1
    See Appendix VII for a glossary of terms.
                                                                                                      Page 18
                             Citibank Purchase Card and Fleet Card Rebates
                             Were Maximized and Are Now Properly Allocated



Figure 2 illustrates the amount of rebates received per quarter for the fleet card program. The
vertical line indicates the start of the SmartPay2 contract.
           Figure 2: Total Fleet Card Citibank Rebates Received by Quarter




Source: Our analysis of Citibank Custom Reporting System data for FY 2005 through the 3rd quarter of FY 2011.
* Indicates the fleet card program received rebates from Wright Express.




                                                                                                      Page 19
                           Citibank Purchase Card and Fleet Card Rebates
                           Were Maximized and Are Now Properly Allocated



Figure 3 shows the purchase card and fleet card programs’ total rebates received per quarter from
the first quarter of FY 2005 through the third quarter of FY 2011. The “Total Rebates” column
indicates the total combined purchase card and fleet card rebates received.
                Figure 3: Citibank Quarterly Rebate Amounts Received
       Fiscal Year/Quarter       Total Purchase Rebate       Total Fleet Rebate       Total Rebate 
           FY 2005 Q1                  $26,499.72             $1,964.40                 $28,464.12 
           FY 2005 Q2                  $25,272.05              $856.05                  $26,128.10 
           FY 2005 Q3                  $37,263.59             $1,742.35                 $39,005.94 
           FY 2005 Q4                  $66,563.03             $1,831.55                 $68,394.58 
           FY 2006 Q1                  $61,258.16             $1,894.11                 $63,152.27 
           FY 2006 Q2                  $37,904.12             $1,655.71                 $39,559.83 
           FY 2006 Q3                  $59,227.21             $2,429.81                 $61,657.02 
           FY 2006 Q4                  $68,966.94             $2,209.47                 $71,176.41 
           FY 2007 Q1                  $69,290.25             $2,343.37                 $71,633.62 
           FY 2007 Q2                  $39,325.97             $1,702.35                 $41,028.32 
           FY 2007 Q3                  $53,802.11             $2,414.62                 $56,216.73 
           FY 2007 Q4                  $76,620.35             $2,880.28                 $79,500.63 
           FY 2008 Q1                  $83,426.13             $2,521.80                 $85,947.93 
           FY 2008 Q2                  $71,763.98             $2,004.24                 $73,768.22 
           FY 2008 Q3                 $118,581.82             $2,515.98                $121,097.80 
           FY 2008 Q4                 $129,978.38             $2,956.08                $132,934.46 
           FY 2009 Q1                 $141,493.03             $5,468.89                $146,961.92 
                                    Beginning of SmartPay2 Contract 
           FY 2009 Q2                 $113,578.88             $3,276.27                $116,855.15 
           FY 2009 Q3                 $222,907.08             $6,354.64                $229,261.72 
           FY 2009 Q4                 $222,907.08             $6,354.64                $229,261.72 
           FY 2010 Q1                 $409,813.64            $10,440.70                $420,254.34 
           FY 2010 Q2                 $202,128.60             $7,840.52                $209,969.12 
           FY 2010 Q3                 $286,732.64             $9,620.46                $296,353.10 
           FY 2010 Q4                 $342,669.21             $8,450.79                $351,120.00 
           FY 2011 Q1                 $245,300.40             $7,223.67                $252,524.07 
          FY 2011 Q2*                 $165,291.00            $7,720.67*                $173,011.67 
          FY 2011 Q3*                 $200,355.33           $10,856.33*                $211,211.66 
             TOTAL                   $3,578,920.70          $117,529.75               $3,696,450.45 
     Source: Our analysis of Citibank Custom Reporting System data for FY 2005 through the 3rd Quarter of
     FY 2011. * Indicates the fleet card program received rebates from Wright Express.
                                                                                                      Page 20
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



                                                                                  Appendix VI

    Excerpt From Office of Management and Budget
              Circular A-123, Appendix B

Office of Management and Budget Circular A-123, Appendix B, Improving the Management of
Government Charge Card Programs, specifically states that the goal of this guidance is to
maximize the benefits to the Federal Government when using Government charge cards to pay
for goods and services by, for example:
      Improving financial, administrative, and other benefits offered to the Federal Government
       by Government charge card providers and other entities, including maximizing rebates
       where appropriate.
      Ensuring effective controls are in place to mitigate fraud, misuse, and delinquency.
      Reducing administrative costs and time for purchasing and paying for goods and services.
To drive down costs while ensuring that charge card programs effectively support the agency
mission and financial controls, charge card managers must strive to:
      Utilize proper cash management decision making to maximize agency sales productivity
       rebates or Government-wide interest income earned by the Department of the Treasury as
       the situation determines.
      Employ the necessary internal controls to identify and collect corrective rebates.
In order to ensure that agencies are in the best position to maximize sales and productivity
rebates, charge card managers must:
      Ensure on-time payments and appropriate card use by employing the processes and tools
       identified in the guidance.
      Initiate internal controls to ensure that appropriate charge card use is maximized.




                                                                                             Page 21
                         Citibank Purchase Card and Fleet Card Rebates
                         Were Maximized and Are Now Properly Allocated



                                                                                 Appendix VII

                              Glossary of Terms

Term                      Definition
Accrue                    To increase in amount or value.
Appropriation             An appropriation is a provision of law authorizing the expenditure of
                          funds for a given purpose and to incur obligations. The IRS has five
                          appropriations: Taxpayer Services, Enforcement, Operations
                          Support, Business System Modernization, and Health Insurance Tax
                          Credit Administration.
Automated                 To convert to an automatic operation.
Basis Point               A basis point in the SmartPay2 contract is 0.01 of one percent and is
                          used in the calculation of the rebates received by the IRS.
Beckley Finance Center    The BFC processes all administrative accounts payable, accounts
                          receivable, and collections and prepares and reconciles all financial
                          reports and accounts to ensure integrity and accuracy.
Citibank Custom           The Citibank Custom Reporting System provides a list of all
Reporting System          attributes, metrics, and filters to produce queries and reports.
Fiscal Year               A 12-consecutive-month period ending on the last day of any month,
                          except December. The Federal Government’s fiscal year begins on
                          October 1 and ends on September 30.
Fleet Cards               Fleet cards are used to procure fuel, maintenance service, and basic
                          repairs for Government owned or leased vehicles. In January 2011,
                          the IRS implemented a new fleet card program, Wright Express.
Integrated Financial      The IFS is a single-integrated system that connects the agency’s
System (IFS)              account performance, budgeting, and procurement processing.
Integrated Procurement    The IPS is a procurement system that is used to track obligations,
System (IPS)              create solicitations and awards, handle vendor files, and generate
                          reports.
Maximizing                The term “maximizing rebates” means to increase rebates as much as
                          possible, where appropriate.


                                                                                             Page 22
                       Citibank Purchase Card and Fleet Card Rebates
                       Were Maximized and Are Now Properly Allocated




Term                    Definition
Productivity Rebates    Productivity rebates are payments from the charge card contractor to
                        the agency/organization based on the timeliness and/or frequency of
                        payments to the contractor.
Purchase Card           Purchase cards are used to procure goods and/or services, such as
                        office supplies, for authorized Government business.
Reasonableness Test     Reasonableness tests are procedures to examine the logic of
                        accounting information.
Rebate                  A rebate is a monetary payment provided by credit card contractors to
                        agencies based on either the dollar volume spent or the timeliness and
                        frequency of payments to the contractor.
Sales Rebate            Sales rebates are payments from the charge card contractor to the
                        agency/organization based on the dollar or “spend” volume during a
                        specified time period.
SmartPay1               SmartPay1 was a card program that provided credit cards to Federal
                        Government agencies/departments through master contracts that are
                        negotiated with major national banks. The contract was in effect
                        from November 1998 through November 2008.
SmartPay2               SmartPay2 is a card program that provides credit cards to Federal
                        Government agencies/departments through master contracts that are
                        negotiated with major national banks. The contract is in effect from
                        November 2008 through November 2018.
Web Request Tracking    A web-based application that employs icons, drop-down menus, and
System                  fill-in data screens to automate the processing of requests for goods
                        and services and provides an electronic interface between the IFS and
                        the Integrated Procurement System.
Wright Express          In January 2011, the IRS implemented a new fleet card program,
                        Wright Express. Wright Express is a subcontractor of Citibank that
                        deals exclusively with fleet cards. Wright Express replaced the
                        Citibank fleet card for the Criminal Investigation and Small
                        Business/Self-Employed Division fleets, with the exception of the
                        fleet vehicles operated internationally.




                                                                                      Page 23
